No. _ _ _ _ __
IN THE SUPREME COURT OF THE UNITED STATES
October Term 2019

ARTHUR LAWTON CLARK,
Petitioner,
v.

THE STATE OF GEORGIA,
Respondent.

PETITIONER'S A,PPLICATION FOR EXTENSION OF TIME TO FILE
PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF GEORGIA

Michael Kennedy McIntyre
McIntyre & Associates
965 Virginia Avenue, NE
Atlanta, Georgia 30306-3615
(tel) 404-879-1515
(fax) 404-879-0005
mkm@georgiapostconviction.com
Counsel ofRecord for Arthur Lawton Clark

No. _ _ _ _ __
IN THE SUPREME COURT OF THE UNITED STATES
October Term 2019

ARTHUR LAWTON CLARK,
Petitioner,
v.

THE STATE OF GEORGIA,
Respondent.

PETITIONER'S APPLICATION FOR EXTENSION OF TIME TO FILE
PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF GEORGIA

TO THE HONORABLE CLARENCE THOMAS, Associate Justice of the
Supreme Court of the United States:
COMES NOW Arthur Lawton Clark, the Petitioner, by and through counsel,
who moves this Court pursuant to 28 U.S.C. §§ 1257(a) and 2101(c) and Supreme
Court Rule 13.5, to grant an extension of time of 60 days in which to file his Petition
for Writ of Certiorari to the Supreme Court of Georgia.
1.

The Petitioner's convictions and sentences were affirmed by the

Supreme Court of Georgia on June 10, 2019. Clark v. State, 829 S.E.2d 306 (2019)
(attached hereto as Exhibit 1). The Petitioner's Motion for Reconsideration was
denied by the Supreme Court of Georgia on July 1, 2019 (attached hereto as Exhibit
2).
2

2.

The Petitioner's Petition for Writ of Certiorari presently is due on

September 30, 2019.
3.

Undersigned counsel did not represent the Petitioner at trial or on

direct appeal.
4.

Undersigned counsel has only recently been retained.

5.

The trial in the Petitioner's case spanned four days and the record is

lengthy.
6.

Undersigned counsel is still in the process of obtaining and reviewing

the record in the Petitioner's case.
7.

An enlargement of time of 60 days in which to file the Petitioner's

Petition for Writ of Certiorari would provide undersigned counsel with sufficient
time to obtain and review the record in the Petitioner's case and complete the
Petitioner's Petition for Writ of Certiorari.
WHEREFORE the Petitioner respectfully prays that the time in which to file
the Petitioner's Petition for Writ of Certiorari be enlarged by 60 days, through and
including November 29, 2019.
Respectfully submitted,

71c/~

Michael K.ennedy McIntyre
Georgia Bar No. 494075
Counsel for Arthur Lawton Clark
Michael Kennedy McIntyre & Associates
965 Virginia Avenue, NE
Atlanta, Georgia 30306
(404) 879-1515

3

CERTIFICATE OF SERVICE
I, Michael Kennedy McIntyre, do hereby certify that I have this day served a
copy of the foregoing PETITIONER'S APPLICATION FOR EXTENSION OF TIME
IN WHICH TO

FILE

THE

PETITIONER'S

PETITION FOR WRIT OF

CERTIORARI TO THE SUPREME COURT OF GEORGIA by depositing same in
the U.S. Mail in a properly addressed envelope with sufficient postage affixed
thereon to assure delivery to:

Mr. Timothy G. Vaughn
District Attorney, Oconee Judicial Circuit
P.O. Box 1027
Eastman, Georgia 31023

and
Mr. Christopher M. Carr
Attorney General, State of Georgia
40 Capitol Square, S.W.
Atlanta, Georgia 30334-1300

Dated: This

n

flday of August, 2019.

Michael Kennedy cIntyre
Georgia Bar No. 494075

4

__ __

__ _,-----_ _ _----_._ __ _---_._------

Clark v. The State, 829 S.E.2d 306 (2019)
--_._-,-----_.
.
•._--- ._----_.

...

...

....

.

...

Oldham, Assistant Attorney General, Department of Law,
40 Capitol Square, S.W., Atlanta, Georgia 30334, Timothy
Grady Vaughn, District Attorney, Christopher Cary Gordon,
A.D.A., Oconee Judicial Circuit District Attorney's Office,
P.O. Box 1027, Eastman, Georgia 31023, for Appellee

829 S.E.2d 306
Supreme Court of Georgia.

CLARK
v.

Opinion

THE STATE.

Boggs, Justice.

S19A0367

I

Following a jury trial, Arthur Lawton Clark was convicted
of felony murder predicated on possession of a firearm by
a convicted felon and aggravated assault in connection with

Decided: June 10, 2019
Synopsis
Background: Defendant was convicted in the Superior
Court, Dodge County, Sarah Wall, J., of felony murder
predicated on possession of a firearm by a convicted felon and
aggravated assault. Defendant appealed.

Holdings: The Supreme Court, Boggs, 1., held that:
evidence was sufficient to support convictions for felony
murder and aggravated assault;
the trial court's refusal to provide defendant's jury instruction
on sudden emergency was not plain error;
trial court error, if any, in admitting into evidence the
final disposition and sentence on defendant's 2013 felony
conviction for aggravated cruelty to animals was harmless;
and
evidence concerning a prior incident where defendant pushed
his sister against a door and hit her was admissible as intrinsic
evidence.

Affirmed.

the shooting death of his brother-in-law, Sonny Barlow. 1
He raises the following enumerations of error: (1) the trial
court erred in denying his motion for a new trial because the
State failed to disprove his affirmative defense ofjustification
based on self-defense; (2) the trial court erred in refusing to
give his requested charges on sudden emergency and selfdefense; (3) the trial court erred in admitting into evidence
documentation of his *308 prior conviction for aggravated
cruelty to animals; and (4) the trial court erred in admitting
testimony about a prior incident. After review, we affirm.
1. Viewed in the light most favorable to the jury's verdict,
the record shows as follows. Clark and the victim, Sonny
Barlow, were brothers-in-law; Mr. Barlow was married to
Clark's sister, Susan Barlow ("Ms. Barlow"). The Barlows
lived with Clark's and Ms. Barlow's mother at a house on the
mother's property in Dodge County.
In 2012, Clark pushed Ms. Barlow against a door at the
Barlow residence and hit her three times. Ms. Barlow
obtained a family violence protective order that barred Clark
from her house for 12 months. In 2013, Clark separately was
convicted and sentenced after pleading guilty to aggravated
cruelty to animals, making him a convicted felon. In 2014,
Clark obtained a .22-caliber pistol that his mother had
purchased some years earlier. He brought the pistol to the
Barlow residence whenever he visited.

*307 Superior Court, Dodge County, Sarah Wall, Judge
Attorneys and Law Firms
Thomas F. Jarriel, Thomas F. Jan'iel, Attorney, P. O. Box 214,
Macon, Georgia 31202-0214, for Appellant
Patricia B. Attaway Burton, Deputy Attorney General,
Paula Khristian Smith, Senior Assistant Attorney General,
Christopher M. Carr, Attorney General, Michael Alexander

i~)

2019 Thornson

r:;~eut8rs

No clairn to

Around lunchtime on May 12, 2015, Clark went to the Barlow
residence to see his mother and to bring her some lunch.
He did not bring his gun inside because he did not see Mr.
Barlow's vehicle at the house. Clark returned to the Barlow
residence later that evening, hoping to visit with his mother
again. When he arrived, he saw that Mr. Barlow's vehicle was
at the house, so he tucked his .22-caliber pistol under his shirt.
Ms. Barlow and their mother were inside, and Mr. Barlow was
outside at his dog pen.

.r<.,·"'"'tH~'':l;

U .3, Governrnent VVorks,

EXHIBIT 1

Clark v. The State, 829 S.E.2d 306 (2019)

Ms. Barlow told her mother that Clark was there to visit, and
her mother replied that she did not feel up to the visit, so Ms.
Barlow told Clark that she and her husband each needed to
take a shower and suggested that Clark leave. Mr. Barlow
then carne into the house and eventually told Clark that he
needed to leave, but Clark did not leave. Instead, he and Mr.
Barlow got into an argument with raised voices. Clark finally
got up and moved toward the back door when Mr. Barlow
pushed Clark, causing him to trip on the back door threshold
and fall onto the porch deck, hurting his leg. When Clark
got back on his feet, he and Mr. Barlow continued arguing,
and Ms. Barlow again asked Clark to leave. Clark and Mr.
Barlow eventually moved off the porch toward Clark's car.
They were no longer arguing, and it appeared that Clark was
going to leave peacefully, when Clark suddenly reached under
his shirt, pulled out his pistol, and shot Mr. Barlow twice.
Clark got in his car and drove away, throwing out the gun
on the side of a road. Ms. Barlow rushed to dial 911. In the
backyard of the Barlow residence, law enforcement officers
found Mr. Barlow, who appeared to have been shot twice in
the chest, and two .22-caliber shell casings.
Clark testified at trial and admitted that he shot Mr. Barlow
multiple times and that Mr. Barlow did not have a gun. No
witness substantiated Clark's claim that Mr. Barlow was about
to attack him. Forensic evidence was consistent with Ms.
Barlow's testimony that Clark and Mr. Barlow were standing
three or four feet apart when Clark fired. The two chest
wounds, including the one fatal wound, showed no stippling
or powder burns, and the medical examiner testified that they
were inflicted at an indeterminate or distant range. Further, an
agent of the Georgia Bureau ofInvestigation who responded
to the crime scene testified that he saw no sign of a struggle.
Another GBI agent who photographed Clark after his arrest
testified that he did not notice or document any injuries to
Clark's neck, chest, or rib area. He also testified that nothing
on Clark's clothes at the time of arrest indicated any kind of
a struggle or physical altercation.
After receiving a "Be On the Look Out" notification for
Clark's car, a Dodge County Sheriff's Deputy saw Clark's
car, performed a traffic stop, searched Clark, and found no
weapon. Officers later searched Clark's residence, pursuant to
a search warrant, and recovered a label and price tag for a .22caliber semi-automatic pistol and .22-caIiber ammunition that
appeared to match the shell casings recovered from the crime
scene.

We conclude that the evidence presented at trial and
summarized above was sufficient to enable a rational trier
of fact to find Clark guilty of the crimes of which he was
convicted beyond a reasonable doubt. See *309 Jackson
v. Virginia, 443 U.S. 307, 319 (III) (B), 99 S.Ct. 2781, 61
L.Ed.2d 560 (1979). The jury was free to reject Clark's
testimony that he shot Mr. Barlow in self-defense, believing
that Mr. Barlow was about to attack him. And Ms. Barlow
testified that she saw Clark, without provocation, draw his
weapon and shoot Mr. Barlow, who was unarmed. See OCGA
§ 24-] 4-8 ("The testimony of a single witness is generally
sufficient to establish a fact."); Dean l: State, 273 Ga.
806, 807 (1), 546 S.E.2d 499 (2001) ("This Court does not
reweigh evidence or resolve conflicts in testimony; instead,
evidence is reviewed in a light most favorable to the verdict,
with deference to the jury's assessment of the weight and
credibility of the evidence.").
2. Clark contends that the trial court erred in refusing to
give his requested instructions on sudden emergency and
self-defense. Specifically, Clark requested that the trial court
instruct the jury, "Where upon a sudden emergency, one
suddenly acquires actual possession ofa pistol for the purpose
of self defense, if you find that to have been the purpose,
then he would not be in violation of any law prohibiting a
felon from being in possession ofa firearm." Cauley v. State,
260 Ga. 324, 326 (2) (c), 393 S.E.2d 246 (1990). Clark also
requested that the trial court instruct the jury: (1) that "[a]
felon would not be in violation of the firearm possession
statute if he was found to be in possession of a firearm for
purpose of self-defense"; (2) that ''where the Defendant acts
in self-defense, the jury is not permitted to find him guilty of
the underlying felony, and accordingly [he] cannot be found
guilty of felony murder"; and (3) that "[a] convicted felon is
justified in possessing a weapon if he reasonably believed it
was the only way to prevent his own imminent death or bodily
injury."
Clark did not object to the charge as given, however, so
we review only for plain error. See OCGA § 17-8-58 (b).
In State v. Kelly, 290 Ga. 29, 718 S.E.2d 232 (2011), this
Court adopted the federal plain error standard, which has four
prongs:

First, there must be an error
or defect-some sort of deviation
from a legal rule--that has not
been intentionally relinquished or

!J. S, GC)Verr1f'Y1er1t \lVorks

2

Clark v. The State, 829 S.E.2d 306 (2019)

abandoned, i.e., affirmatively waived,
by the appellant. Second, the legal
error must be clear or obvious, rather
than subject to reasonable dispute.
Third, the error must have affected-the
appellant's substantial rights, which
in the ordinary case means he
must demonstrate that it affected the
outcome ofthe trial court proceedings.
Fourth and finally, if the above three
prongs are satisfied, the appellate
court has the discretion to remedy the
error--discretion which ought to be
exercised only if the error seriously
affects the fairness, integrity or public
reputation of judicial proceedings.

(Citation and punctuation omitted; emphasis in original.) Id.
at 33 (2) (a), 718 S.E.2d 232.
Here, there was no clear or obvious error. A charge on sudden
emergency may be appropriate when a defendant, who is
on trial for felony murder predicated on possession of a
firearm by a convicted felon, otherwise could not successfully
assert self-defense because he was engaged in the felony
of possessing a firearm at the time that he was defending
himself. Austin l~ State, 300 Ga. 889, 891 (2), 799 S.E.2d
222 (2017). However, "[a] trial court does not err by failing
to give a jury charge where the requested charge is not
adjusted to the evidence presented at trial." (Citation and
punctuation omitted.) Id. Thus, a sudden emergency charge is
not required where the defendant "did not suddenly acquire
actual possession of the gun that he used to shoot [the
victim] while trying to defend himself," but instead "already
possessed [the] firearm that he chose to use before being
placed in any situation that required him to actually defend
himself." Id. at 891-892,799 S.E.2d 222.
Clark "provided no evidence of any sudden emergency that
caused him to suddenly possess a firearm to defend himself."
Id. Clark's own testimony was that he acquired the .22-caliber
pistol that he used to shoot Mr. Barlow a year before the
shooting, and he kept it hidden except to bring it with him
whenever he visited his mother and Mr. Barlow was present.
Indeed, on the day of the incident, intending to go to the
Barlow residence to visit his mother, Clark put the pistol in his
car. And, when he saw Mr. Barlow's vehicle in the driveway,
he chose to tuck the pistol *310 under his shirt and carry it

inside the home. Therefore, the evidence showed that Clark
already possessed the pistol before he was confronted with
any situation that would require him to defend himself, and
the trial court's refusal to give Clark's requested instructions
on sudden emergency was not a clear or obvious error. See
Kelly, 290 Ga. at 33 (2) (a), 718 S.E.2d 232.
As for Clark's requested charges regarding self-defense, the
trial court provided an extensive instruction on justification,
including self-defense, which closely tracked the Georgia
Suggested Pattern Jury Instructions. The trial court instructed
the jury on the State's burden to disprove the affirmative
defense beyond a reasonable doubt; the reasonable belief
necessary to justify self-defense by use of force, including
the use of deadly force; and when the jury has a duty to
acquit based on justification. The trial court also explained
that "[t]he fact that a person's conduct is justified is a defense
for prosecution of any crime based on that conduct." These
instructions adequately covered justification, including selfdefense, and the State's burden of proof. The trial court's
charge, therefore, was not clear or obvious error. See Kelly,
290 Ga. at 33 (2) (a), 718 S.E.2d 232; lv/orris v. State, 303 Ga.
192,198-199 (V)(B), 811 S.E.2d 321 (2018).
3. Clark argues that the trial court erred by admitting into
evidence State's Exhibit 65, the final disposition and sentence
on his 2013 felony conviction for aggravated cruelty to
animals. The exhibit included the indictment, a form showing
Clark's change of plea from not guilty to guilty, and a sheet
reflecting the entry of a judgment of conviction and sentence
for that crime. Clark contends that the admission of the exhibit
was error because he had stipulated to the conviction for
purposes of the felony murder charge and the danger of the
jury using the evidence as inadmissible character evidence
outweighed its probative value.
Clark makes no claim of harm stemming from the exhibit's
admission beyond the fact that it references his prior felony.
The only information given in the exhibit regarding Clark's
felony conviction is that he was charged with aggravated
animal cruelty for "knowingly and maliciously caus[ing]
death to a dog belonging to John Woodard, an animal[,] by
shooting him," and that Clark pled guilty to that offense. In
contrast, Clark and a rebuttal witness testified extensively and
without objection about the prior felony offense in far greater
detail than that contained in the exhibit.
The admission of this exhibit was discussed repeatedly at trial.
Initially, during the State's case-in-chief, the State sought to

U,S, Govemrnent VVorks,

3

Clark v. The State, 829 S.E.2d 306 (2019)

introduce the exhibit to prove the charge of possession of a
firearm by a convicted felon. Clark stipulated that he was a
convicted felon at the time of the shooting, and the trial court
did not admit the exhibit at that time. The State later took issue
with the trial court's refusal to admit the exhibit, and Clark
argued that, because he stipulated to being a convicted felon,
the specific details of the prior conviction were impermissible
character evidence. The trial court again ruled the exhibit
inadmissible, but noted that it could become admissible at a
later time.
After the State rested, Clark elected to testify. During crossexamination, the State asked Clark whether he and the State
had entered into a stipulation that he was a convicted felon.
Clark agreed and then volunteered that he previously pled
guilty to aggravated cruelty to animals. Clark then testified
in detail about the facts of the incident that led to that
conviction. Specifically, Clark testified that he walked up to
his neighbor's truck and told the neighbor that he was going to
shoot the neighbor's dog, which was in the back of the truck;
that the neighbor'S only response was, "well, I'm sorry"; and
that he then shot the neighbor'S dog. In rebuttal to Clark's
testimony the State called John Woodard, the neighbor, who
testified that he was parked on the side of the road with his
dog in the back of his truck when Clark pulled up beside him
in the street and got out of his vehicle. According to Woodard,
Clark said, "your dog killed my cat," and then puIled out a gun
and shot Woodard's dog twice. Woodard testified that Clark
then said, "okay[,] bud, we're even," and then got back into
his vehicle and sped off. Clark's counsel did not object to the
State's questioning of Clark or *311 to Woodard's testimony,
and Clark does not enumerate as error the admission of their
testimony. The propriety of this testimony is therefore not
before this Court for consideration.
Thereafter, the State again moved to admit into evidence the
exhibit containing the documentation of Clark's gUilty plea
and judgment of conviction for aggravated animal cruelty
for impeachment purposes only. The trial court admitted the
exhibit over Clark's objection purportedly for the limited
purpose of attacking Clark's credibility. But even if the trial
court erred in allowing the exhibit into evidence, any error
was harmless. See Jones v. State, 305 Ga. 653, 656-57(3),
827 S.E.2d 254 (2019) (explaining that "[a] nonconstitutional
error is harmless if it is highly probable that the error did not
contribute to the verdict" (citation and punctuation omitted».
The unobjected-to testimony concerning the felony was far
more damaging and detailed in content than was the reference
to the felony in the exhibit. In addition, the other evidence

of Clark's guilt was strong, as discussed in Division 1 above.
Thus, we conclude that it is highly probable the outcome of
the trial would have been no different had the exhibit not been
introduced. See id. 305 Ga. at 657, 827 S.E.2d 254 (any error
in admission of defendant's prior conviction was harmless
when defendant admitted that he shot victim, no witnesses
substantiated defendant's self-defense claim, police found
no gun near victim's body, and forensic evidence strongly
suggested only one gun was fired at the scene).
4. Clark next contends that the trial court erred in allowing
Ms. Barlow to testify about a prior bad act, specifically, the
2012 incident in which Clark pushed her against a door and
hit her. Because the incident did not occur between Clark and
the victim, Clark argues that the testimony was irrelevant and
prejudicial. The District Attorney argues that our review of
this issue is limited to plain error because Clark did not object
to the testimony about that prior bad act. However, the trial
court ruled definitively at a pretrial hearing that evidence of
the act would be admissible, so Clark was not required to
object to the evidence at trial to preserve his claim of error for
appeal. See Anthony ~~ State, 298 Ga. 827, 831-832 (4), 785
S.E.2d 277 (2016). Therefore, this issue is entitled to ordinary
appellate review for abuse of discretion. See Booth l~ State,
301 Ga. 678, 682 (3), 804 S.E.2d 104 (2017).
Evidence of a prior bad act cannot be admitted to prove
the character of a person, but it may "be admissible for
other purposes, including, but not limited to, proof of motive,
opportunity, intent, preparation, plan, knowledge, identity, or
absence of mistake or accident." OCGA § 24-4-404 (b). The
Attorney General argues that Rule 404 (b) does not apply here
because the evidence was "intrinsic." We agree.
"The limitations and prohibition on 'other acts' evidence set
out in [Rule 404 (b) ] do not apply to 'intrinsic evidence.'
" (Citations and footnote omitted.) Williams v. State, 302
Ga. 474, 485 (IV) (d), 807 S.E.2d 350 (2017). Evidence is
intrinsic when it is "( 1) an uncharged offense arising from
the same transaction or series of transactions as the charged
offense; (2) necessary to complete the story of the crime;
or (3) inextricably intertwined with the evidence regarding
the charged offense." (Citations and punctuation omitted.) ld.
Evidence that explains the context of the crime is admissible
if it "forms an integral and natural part of an account of the
crime, or is necessary to complete the story of the crime for
the jury." (Citations and punctuation omitted.) Id. at 485-486
(IV) (d), 807 S.E.2d 350.

4

Clark v. The State, 829 S.E.2d 306 (2019)

The evidence must also meet the balancing test of OCGA §
24-4-403, which says, "Relevant evidence may be excluded if
its probative value is substantiaIJy outweighed by the danger
of unfair prejudice, confusion of the issues, or misleading the
jury or by considerations of undue delay, waste of time, or
needless presentation of cumulative evidence." See Williams,
302 Ga. at 485 (IV) (d), 807 S.E.2d 350. Here, the trial
court did not abuse its discretion in admitting the evidence
regarding the prior incident between Clark and Ms. Barlow
because it was intrinsic evidence. The testimony regarding
Clark's hitting and pushing Ms. Barlow at her home in 2012
was necessary to complete the story of the crime for the jury.
It provided context *312 for the charged offenses to explain
why the Barlows were persistent with their requests that Clark
leave; why Mr. Barlow did not want Clark at his residence;
why Mr. Barlow did not feel comfortable taking a shower,
leaving Clark alone in the room with his wife; and why Mr.

Barlow followed Clark outside of the home to ensure that he
left. Because the evidence was intrinsic, it was outside the
reach of Rule 404 (b). See Williams, 302 Ga. at 485 (IV)
(d), 807 S.E.2d 350. And we cannot say that the trial court
abused its discretion in finding that the probative value of
the evidence was not substantially outweighed by the danger
of unfair prejudice. 2 See OCGA § 24-4--403. Therefore, the
trial court did not err in admitting the evidence.
Judgment affirmed

All the Justices concur.
All Citations
829 S.E.2d 306

Footnotes

1

The crimes occurred on May 12-13, 2015. On June 1,2015, a Dodge County grand jury indicted Clark for malice murder,
felony murder predicated on aggravated assault, aggravated assault, felony murder predicated on possession of a firearm
by a convicted felon, possession of a firearm by a convicted felon, and manufacture of marUuana. Clark was tried in
October 2016, and a jury found him guilty of the lesser-included offense of VOluntary manslaughter as to malice murder,
as well as felony murder predicated on aggravated assault, aggravated assault, felony murder predicated on posseSSion
of a firearm by a convicted felon, and possession of a firearm by a convicted felon. The trial court entered an order of nolle
prosequi as to the manufacture of marijuana charge and sentenced Clark to life imprisonment for felony murder predicated
on possession of a firearm by a convicted felon, piUS 20 years to serve concurrently for aggravated assault. The trial court
noted that the voluntary manslaughter and felony murder predicated on aggravated assault convictions were vacated by
operation of law and merged the possession of a firearm by a convicted felon count with the corresponding felony murder
count. On October 17, 2016, Clark filed a motion for new trial, which he amended on December 1, 2017. The trial court
denied his motion on April 30, 2018. Clark filed a timely notice of appeal, and the case was docketed in this Court for the

2

term beginning in December 2018 and submitted for decision on the briefs.
As we have noted previously, lithe exclusion of evidence under Rule 403 is an extraordinary remedy which should be used
only sparingly." (Citation, punctuation, and footnote omitted.) Olds v. State, 299 Ga. 65, 70 (2), 786 S.E.2d 633 (2016).

End of Document

G

2019 Thomson Reuters. No claim to original U.s. Government Works.

5

SUPREME COURT OF GEORGIA
Case No. S19A0367
July 01,2019

The Honorable Supreme Court met pursuant to
adjournment.
The following order was passed.

ARTHUR LAWTON CLARK v. THE STATE.
Upon consideration of the Motion for
Reconsideration filed in this case, it is ordered that it be
hereby denied.

All the Justices concur.

EXHIBIT 2

SUPREME COURT OF THE STATE OF GEORGIA
Clerk's Office, Atlanta
I certify that the above is a true extract
from the minutes of the Supreme Court of
Georgia.
Witness my signature and the seal of said
court hereto affixed the day and year last above
written.

~j~,clerk

